toa
I

COCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 L ec g a I B rre fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-251 & 19-255

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,

v.
XAVIER BECERRA, in his official capacity
as the Attorney General of California,
Respondent.
THOMAS MORE LAW CENTER,
Petitioner,

 

v.
XAVIER BECERRA, in his official capacity
as the Attorney General of California,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of September, 2019, send
out from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE PHILANTHROPY ROUNDTABLE,
INDEPENDENT WOMEN’S FORUM, AND PEOPLE UNITED FOR PRIVACY FOUNDATION AS AMICI CURIAE IN
SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

SAMUEL S. SADEGHI

MORGAN, LEWIS &
BOCKIUS LLP

600 Anton Boulevard,
Suite 1800

Costa Mesa, CA 92626

(714) 830-0600

ALEXANDER L. REID
Counsel of Record
JAMES D. NELSON
MORGAN, LEWIS &
BOCKIUS LLP
1111 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 739-3000
alexander.reid@morganlewis.com

Counsel for Amici Curiae

Subscribed and sworn to before me this 25th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

eer, 2 E Ellie QO, diew- hb, ale

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38524
 

Attorneys for Petitioner in No. 19-254

Derek L. Shaffer Quinn Emanuel Urquhart & Sullivan, LLP (202) 538-8000
Counsel of Record 1300 | Street NW, Suite 900
Washington, DC 20005

derekshaffer@quinnemanuel.com

Party name: Americans for Prosperity Foundation

 

 

Attorneys for Petitioner in No. 19-255

John J. Bursch Alliance Defending Freedom (616) 450-4235
Counsel of Record 440 First Street, NW
Suite 600

Washington, DC 20001

jbursch@adflegal.org

Party name: Thomas More Law Center

 

 

 

Attorneys for Respondent in No. 19-251 and No. 19-255

Aimee Athena Feinberg California Department of Justice (916) 210-6003
Counsel of Record 1300 | Street
Sacramento, CA 95814

Aimee.Feinberg@doj.ca.gov

Party name: Xavier Becerra

 

 
